                                                   1

                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

11   Case Number: A09050043                                                         11           Page 1 of 1



          Our office received an allegation of deliberate omission of research data. The complainant1
          previously referred this matter to our office, however, resubmitted his claim after a change in
          personnel within our office. Specifically, the complainant offered his own non-peer reviewed
          articles, emails with other scientists and an article the complainant authored which he stated was not
          accepted for publication in a journal as evidence of the omission.

          The complainant claims that his research determined that there were significant shortcomings in the
          research completed by the subjects2. The complainant claims the subjects' failure to incorporate his
          research results is a direct omission of critical data and therefore constitutes research misconduct.

          Based on our review, it appears the complainant's research results have not been widely accepted by
          the relevant community. This is evident by the lack of peer reviewed publications as well as the
          content of emails the complainant offered as evidence. In addition, the fact that the subjects have not
          incorporated oth& research into their own research effort does not constitute research misconduct,
          but, instead is indicative of a scientific difference of opinion.

          We find no merit to the complainant's allegation.      Accordingly, this case is closed.
